March 31, 2003
Audit Report No. 03-027


The Division of Resolutions and
Receiverships’ Controls Over Data
Input to the Service Costing System
                                    TABLE OF CONTENTS
 BACKGROUND ............................................................................................................1
     Implementation of the Service Costing System for Billing
     Receiverships……………………………………………...………….....…….…3

RESULTS OF AUDIT................................................................................................…..6

FINDING A: DATA VALIDATION .............................................................................. .....7
     DRR Data Quality Program…. .....................................................................….7
     Service Costing System Data Quality Report ................................................... .....8
     Recommendations…. ......................................................................................….9

FINDING B: DATA SUBMISSION ............................................................................... ....10
     Data Elements for Other Receivership Claims…. .......................................…10
     Process Used to Calculate Other Receivership Claims.................................... ....11
     Submission of Workload Adjustments…. ....................................................…12
     Adjustments to Receivership Billings................................................................. ....12
     Recommendations…. ......................................................................................…13

CORPORATION COMMENTS AND OIG EVALUATION.................................…13

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY..........................…17

APPENDIX II: DESCRIPTION OF DRR SYSTEMS THAT PROVIDE
             DATA TO THE SERVICE COSTING SYSTEM ........................…21

APPENDIX III: CORPORATION COMMENTS ..................................................…23

APPENDIX IV: MANAGEMENT RESPONSES TO
             RECOMMENDATIONS................................................................…27

FIGURE: DRR DATA FLOW INTO MONTHLY SERVICE
        COSTING BILLING OF RECEIVERSHIPS…………………………….5
Federal Deposit Insurance Corporation                                                                     Office of Audits
Washington, D.C. 20434                                                                       Office of Inspector General



DATE:               March 31, 2003

TO:                 Mitchell L. Glassman, Director
                    Division of Resolutions and Receiverships

                    Fred Selby, Director
                    Division of Finance




SUBJECT:            The Division of Resolutions and Receiverships’ Controls Over Data Input to the
                    Service Costing System (Audit Report No. 03-027)

This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of the Division of Resolutions and Receiverships’ (DRR)
controls over data input to the Service Costing System. The FDIC uses the Service Costing
System to bill FDIC receiverships1 for services performed by the Corporation on behalf of the
receiverships. These billings provide reimbursement to FDIC insurance funds for receivership-
related costs. DRR provides a significant amount of monthly workload data to the Service
Costing System that directly affects the accuracy of receivership billings.

The overall objective of this audit was to evaluate whether adequate controls exist to ensure the
accuracy, timeliness, and completeness of DRR data used by the Service Costing System.
Specifically, we determined whether adequate controls exist to: (1) validate and verify data in
DRR systems that update the Service Costing System, (2) ensure the timeliness and completeness
of DRR processing and reporting of data to the Service Costing System, and (3) ensure
compliance with applicable laws and regulations. Although the Service Costing System was
implemented to meet a variety of management needs and receives data from systems outside of
DRR, we concentrated this audit on data from DRR systems and the related impact on
receivership billings. For the period January 1, 2002 through December 31, 2002, the FDIC
billed $63,074,274 to receiverships using the Service Costing System. Additional details on our
objective, scope, and methodology are presented in Appendix I.


BACKGROUND

When an FDIC-insured institution is closed by a federal or state regulatory agency, the FDIC is
appointed as receiver. In that capacity, the FDIC has an obligation to all claimants of the

1
 Receiverships are failed financial institutions for which the FDIC has been appointed as receiver to manage the
liquidation (asset sales, loan servicing, claims resolution, etc.) of the institution’s remaining assets.
receivership to maximize the amounts recovered as quickly as possible. The receivership
process involves performing the closing function at the failed institution, maintaining the value
of and liquidating any remaining failed institution assets, and distributing any proceeds of the
liquidation to those with approved claims of the receivership. The Receivership Management
Program is one of the FDIC’s three main business lines.

Where expenses are incurred directly on behalf of a receivership, the FDIC charges those
expenses directly to the receivership. However, many expenses incurred by the FDIC cannot be
attributed directly to a single receivership. Service costing is a process employed by the FDIC to
bill individual receiverships a fair and reasonable charge for those expenses.

The Financial Institutions Reform, Recovery, and Enforcement Act, enacted in 1989, established
three funds to be administered by the FDIC: the Bank Insurance Fund, the Savings Association
Insurance Fund, and the Federal Savings and Loan Insurance Corporation Resolution Fund. This
legislation requires that any personnel, administrative, or overhead costs are allocated to the
Fund for which the costs were incurred, or across the Funds for shared activity.

Section 12 of the Code of Federal Regulations (12 C.F.R. 360.4) requires the FDIC to act as
receiver to manage failed financial institutions and to charge only those expenses that are
“necessary and appropriate” to receiverships. To meet these requirements, the FDIC developed
procedures to bill receivership program-related expenses that were not charged directly to
receiverships and were initially paid by corporate funds. Service billing is the FDIC’s
methodology to satisfy this requirement.

The regulation defining expenses that can be charged to receiverships allows the FDIC flexibility
in defining those expenses that are billable. The Corporation, acting in its role as both receiver
and corporate entity, has, within certain limits, sole discretion in determining the most
appropriate cost for the services performed. These expenses are billed to receiverships as
administrative expenses of the receiver, and have priority over any uninsured deposit liability of
the institution that may be paid in the form of dividend payments.

When a financial institution is closed and the FDIC is appointed as receiver, one of the FDIC’s
responsibilities is to sell the institution’s assets to pay the depositors and its creditors. If there is
any excess cash generated by the disposition of these assets less disposition cost and reserves
met (cash held to meet the obligations of the receivership, including administrative expenses), a
dividend may be declared and distributed to the proven claimants. The FDIC conducts quarterly
reviews of the financial statements of the receivership to determine whether sufficient funds are
available to pay dividends, and as additional funds become available, dividends may be declared.
The FDIC shares in dividend distributions on a percentage basis with uninsured depositors of the
failed financial institution.

Prior to 2002, the FDIC’s formula for distributing indirect and support expenses to individual
receiverships was based on direct expenses: that is, the greater the amount of direct expenses
charged to a receivership, the greater the amount of indirect and support expenses charged to the
receivership. In periods of high receivership activity, the volume of directly charged expenses


                                                   2
creates a broad base over which the indirect and support expenses can be distributed. In periods
of low activity, however, indirect and support expenses are large relative to direct expenses, and
high liquidation activity at a particular receivership will result in allocation of high levels of
indirect expenses. Thus, using the previous formula of expense distribution, a relatively small
receivership that has a relatively high level of activity during a given period may receive a
disproportionately large amount of indirect support expenses. This situation is more acute when
the overall level of receivership activity, as represented by the number of active receiverships, is
low.

As receivership workload has declined since 1995, when there was a high of 1,834 receiverships,
to the current level of 119 active receiverships, expenses charged to receiverships have also
declined. However, receivership activities declined at a faster rate than expenses charged to
receiverships. This development, together with other factors,2 prompted the FDIC in the late
1990s to evaluate the practice of charging all receivership program-related expenses to
receiverships. If this practice had continued, it could have led to an inappropriate indirect
expense distribution among the receivership population, and many of the fixed costs necessary to
maintain the receivership program would have become burdensome to individual receiverships.

Implementation of the Service Costing System for Billing Receiverships

The FDIC began using the Service Costing System to bill receiverships as of January 1, 2002.
The Service Costing System applies standard rates established for various services performed by
the FDIC on behalf of receiverships. These services include franchise marketing, closing
activities, financial services, asset sales, asset management, subsidiaries management,
receivership claims, investigations, and litigation. In so doing, the individual receiverships are
treated uniformly regardless of the overall volume of receivership activities. To produce bills
and related reports, cost, rate, and workload data are extracted from several feeder systems each
month and uploaded into the Service Costing System. These data are converted and reformatted
for use by the billing components of the Service Costing System. These costs are then billed to
receiverships by applying a standard rate to workload volumes that are extracted from various
FDIC information systems. For example, in a given month, a receivership would be billed for
loan sales activity based on the number of loans sold on behalf of that receivership. Data on the
number of loans sold are provided from DRR to the Division of Finance (DOF) on a monthly
basis and entered into the Service Costing System, which uses a standard rate established for
loan sales to calculate the total cost to the receivership for loans sold that month.

In 2002, five separate DRR systems were used to provide workload volumes for many of the
services billed to receiverships. These systems included the National Asset Inventory System
(NAIS),3 Receivership Liability System (RLS), Warranties and Representations Accounts
2
  Consequences of inaction could possibly include an increasing number of shareholder challenges to the FDIC, an
eventual inequitable distribution of expenses among the three Funds, and an increased focus on the Corporation’s
dual role as the largest creditor and receiver.
3
  NAIS is a data repository for several systems of record, including the Owned Real Estate System (ORES), Asset
Marketing System (AMS), Credit Notation System (CNS), and the National Processing System (NPS).



                                                        3
Processing System (WRAPS), Subsidiary Information Management Network (SIMAN), and the
Pension Plan Tracking System (PENTRACK). (See Appendix II for more detailed descriptions
of these DRR systems.) Specific data elements from each of these systems are provided by DRR
to DOF. In turn, DOF loads these data into the Service Costing System to calculate the
receivership billings each month.

To establish the procedures by which DRR systems data would be provided for the Service
Costing System, memorandums of understanding (MOU) were executed between DOF and DRR
for each system. The purpose of the MOUs is to identify the specific data that will be needed by
the Service Costing System and the method by which the data will be transferred to the Service
Costing System in accordance with agreements reached by the respective staffs of DOF and
DRR. Under the MOUs, DRR staff members submit a Service Cost Data Report by the 15th of
the month that includes the required data in a specific format. DOF staff input the workload data
that are used to calculate receivership billings for the prior month into the Service Costing
System. The following diagram depicts the flow of data from DRR systems to the Service
Costing System.




                                                4
                             DRR DATA FLOW INTO MONTHLY SERVICE
                               COSTING BILLING OF RECEIVERSHIPS




     DRR SYSTEMS                                                       DOF SYSTEMS

                                                                           NPS
   ORES


    AMS                     NAIS

    CNS



                             RLS

                                                                        Service Costing System
                                                                               Software

                                                                             Multiplies
                          WRAPS                      Service Costing
                                                                           Standard Rates
                                                      Shared Drive
                                                                               Times
                                                                          Workload Drivers



                          SIMAN
                                                                          Service Costing
                                                                          Billing System
                                                                          prepares monthly
                                                                          billing statements
                       PENTRACK                                           for each
                                                                          receivership based
                                                                          on information
                                                                          from the Service
                                                                          Costing System
Source: OIG analysis of the FDIC Service Billing User Guide.




                                                           5
RESULTS OF AUDIT

DRR controls to ensure the timeliness of data provided to the Service Costing System are
adequate; however, controls to ensure the accuracy and completeness of data used by the Service
Costing System could be improved. Specifically,

•   DRR has not instituted sufficient controls to adequately validate and verify data in systems
    that update the Service Costing System. As a result, the FDIC does not have adequate
    assurance that workload data from DRR systems are valid and, therefore, that expenses are
    accurately billed to receiverships under the Service Costing System (see Finding A: Data
    Validation).

•   DRR’s procedures for ensuring accurate and complete data processing and reporting to the
    Service Costing System are not adequate. As a result, approximately $1.01 million in
    additional corporate expenses were not properly billed to receiverships during 2002. We
    consider the small portion of these expenses that would not be recovered by the FDIC from
    receivership dividend payments to be funds put to better use (see Finding B: Data
    Submission).

The FDIC has implemented the Service Costing System as a means to comply with applicable
laws and regulations related to appropriately billing expenses to receiverships. However, the
FDIC has not achieved full compliance because controls for ensuring complete data processing
and reporting to the Service Costing System are not adequate. In its dual role as insurer and
receiver, the Corporation should avoid even the appearance of an inequitable distribution of
expenses between the Corporation and receiverships. The data completeness control deficiencies
we identified limit the Corporation’s ability to avoid such an appearance and ensure compliance
with applicable laws and regulations.

We are making several recommendations to improve the overall service billing process. These
recommendations address improvements needed in such areas as data quality procedures and
data submission. We are also recommending that DRR and DOF work together to evaluate the
inaccuracies discussed in this report related to asset sales and receivership claims to determine
whether any adjustments are necessary to receivership billings.




                                                 6
                         FINDINGS AND RECOMMENDATIONS

FINDING A: DATA VALIDATION

DRR has not instituted sufficient controls to adequately validate and verify data in systems that
update the Service Costing System. Although DRR could use the results of its Data Quality
Program4 to validate and verify data provided to the Service Costing System, the Data Quality
Program was not specifically designed for that purpose. Only two of the five systems in DRR
that update the Service Costing System (RLS and SIMAN) are included as priority systems in
DRR’s Data Quality Program. Further, the primary data element from RLS used in the Service
Costing billing process is not tested as part of the Data Quality Program. Also, although the
Service Costing System creates a data quality report to validate the success or failure of each
submission from DRR, DOF and DRR staff members did not adequately review the report to
ensure that data were processed correctly into the Service Costing System. As a result, the FDIC
does not have adequate assurance that workload data from DRR systems are valid and, therefore,
that expenses are accurately billed to receiverships under the Service Costing System.

DRR Data Quality Program

DRR Directive 4360.14, dated January 31, 2001 (updated October 1, 2002), established the DRR
Data Quality Program. This program establishes the minimum standards to be adhered to
for DRR priority systems. During 2002, six DRR systems were identified as priority systems
under the Data Quality Program. This directive requires that, on at least a semi-annual basis, an
identified Data Quality Advocate for each system shall ensure completion of a review of a
sample of all critical data elements for their respective priority system. If the review results in an
accuracy rate for any critical data element of less than 90 percent, a written corrective action plan
will be developed and implemented.

Workload data to the Service Costing System are provided directly from two systems identified
as priority systems—RLS and SIMAN—and indirectly from ORES, another priority system.
ORES updates owned real estate data in NAIS; however, NAIS, PENTRAK, and WRAPS, all of
which provide data to the Service Costing System, are not included as priority systems. Further,
the primary data element from RLS that is provided to the Service Costing System to determine
the amount billed (number of claims resolved) is not one of the data elements tested.

NAIS provides data to the Service Costing System on assets managed and sold. Such data
include loans, owned real estate, mortgages, and other assets. However, other than the owned
real estate data from ORES, no other asset data in NAIS have been reviewed. During the course
of our review, DRR staff determined that many of the assets from bank closings in the latter part
of 2001 and during 2002 had not been loaded to NAIS. Also, a reconciliation performed by

4
  DRR Directive 4360.14, dated January 31, 2001, established DRR’s Data Quality Program to provide specific
requirements for each Priority Information Technology (IT) Data System and to promote cost-effective means of
maintaining reliable data.


                                                       7
DRR staff, dated as of August 30, 2002, indicated that NAIS did not include assets included in
the NPS.5 However, as of November 30, 2002, action had not been taken to ensure that these
assets were identified and adjustments made to the Service Costing System.

Service Costing System Data Quality Report

DRR and DOF staff members did not fully use controls established to verify that data were
processed correctly into the Service Costing System. After each of the monthly data submissions
from the five respective DRR systems are processed, the Service Costing System creates a Data
Quality Report. Per the MOU, this report summarizes the data entered into the Service Costing
System and is used by DOF oversight personnel to validate the success or failure of the data
processing. Specifically, the content of the Data Quality Report is designed to enable Service
Costing System oversight personnel to confirm that the data used by the Service Costing System
correctly reflect the data received from the five DRR systems. If Service Costing System
oversight personnel in DOF encounter problems with the data, according to the MOU, they
should contact the respective DRR staff member who submitted the data. For its part, DRR also
receives a copy of the Data Quality Report and could review the report for accuracy. However,
our work indicated that DRR submitted data that neither DRR nor DOF identified as being
incorrectly processed to the Service Costing System.

During our testing of Other Receivership Claims6 submissions for the month of July 2002, we
determined that the data reported by the Service Costing System did not match the submission
from DRR. The data extract from DRR did not process correctly and erroneous data were fed to
the Service Costing System. However, even though the Data Quality Report indicated that a
problem existed, action was not taken by staff in DRR or DOF. Based on interviews with DRR
and DOF staff, we determined that the Data Quality Report was not reviewed by either the DRR
or DOF staff to verify that the data extract performed correctly. Therefore, the erroneous data
were not identified and incorrect data were input to the Service Costing System.

We contacted the five DRR staff members responsible for providing data to the Service Costing
System for each of the five systems and found that only one of the five had ever reviewed the
Data Quality Report they received each month. The DRR staff members responsible for
providing monthly workload data stated that it was not their responsibility to review the report
unless specifically requested by someone from the DOF Service Costing team. Also, as of
November 30, 2002, none of those in DRR responsible for submitting workload data had
accessed the Service Costing System and only three of the five staff reported they had obtained a
copy of the Service Billing User Guide distributed by DOF in May 2002. DRR staff members
also advised us that they encountered problems logging into the Service Costing System.


5
  NPS is the FDIC loan system that processes loan payments and maintains demographic information. It accrues
interest and provides billing and interest ticklers for statements and changes to the interest rate.
6
  Other Receivership Claims is a Service Costing System line item that is billed to receiverships for tasks related to
investigating and analyzing any creditor claims other than those arising from insured or uninsured depositors of a
failed financial institution.



                                                           8
To ensure accuracy throughout the service costing billing process, effective communication and
coordination between DRR and DOF is essential. Further, DRR staff members involved in the
process must have ready access to the system to confirm that data they provide are accurately
captured in the system.

Recommendations

We recommend that the Director, DRR:

(1) Include DRR systems and specific data elements used for the Service Costing System under
    the Data Quality Program to be periodically verified and validated.

(2) Establish procedures that require DRR staff members involved in the service costing process
    to verify that the data they submitted were processed accurately.

We recommend that the Directors, DOF and DRR:

(3) Ensure that appropriate DRR staff members are able to access the Service Costing System to
    verify data submitted.




                                               9
FINDING B: DATA SUBMISSION

Procedures for ensuring the accuracy and completeness of data submitted to the Service Costing
System are not adequate. DRR submitted inaccurate and incomplete data to the Service Costing
System that were not identified during the data submission process. Specifically, because
inadequate guidance was provided to those in DRR submitting workload data, (1) inaccurate data
elements for Other Receivership Claims were submitted, (2) an ineffective process was used to
calculate Other Receivership Claims resolved, and (3) incomplete loan and other asset sales
information was reported. As a result, the Service Costing System may have under-billed
corporate expenses to receiverships by approximately $1.01 million. With respect to the
$1.01 million, the FDIC will need to adjust receivership billings to recover this amount as
administrative expenses. If this amount were not recovered from the respective receiverships as
administrative expenses, the vast majority of this amount would be recovered in the form of
dividend payments from the receiverships. However, the small portion that is not likely to be
recovered as dividend payments will be reported as funds put to better use.

Data Elements for Other Receivership Claims

The MOU between DOF and DRR specifies that RLS is the FDIC system of record for
information relating to receivership claims. RLS is the FDIC system used to store and track
individual uninsured depositor7 and general trade creditor8 claims resulting from failed financial
institutions.

Per the MOU, DRR is to report the number of claims resolved during the month (approved or
denied); however, the MOU did not specify whether these were to include both uninsured
depositor and general trade creditor claims.

Using the MOU as guidance, DRR staff members assigned to provide Other Receivership Claims
data for the Service Costing System interpreted that these data were to include claims resolved
for both general trade creditor claims and uninsured depositor claims. Each month during 2002,
DRR submitted a report electronically per the MOU to the Service Costing shared drive to be
input to the Service Costing System. Each report contained a footnote stating that “Other
Receivership Claims is composed of general trade creditors and uninsured depositors.” When
DOF received these reports, it did not question the data that were being submitted.

However, DRR staff members involved in the Service Costing System planning stages assumed
that workload data for the Other Receivership Claims service line would only include general
trade creditor claims resolved. When they were contacted in January 2003 regarding this issue,
they stated that work involving uninsured depositor claims is an FDIC corporate responsibility


7
  An uninsured depositor claim is made when a portion of any deposit of a customer at an insured depository
institution exceeds the applicable FDIC insurance coverage for that depositor at that institution.
8
  A general trade creditor claim is made when an entity or individual, including suppliers, trades people, contractors,
or others have an unsecured claim against a failed financial institution.


                                                          10
and should not be charged to the receiverships. Also, the FDIC Budget Coding Guide9 states that
expenses related to deposit insurance obligations are charged to the Corporation as insurer.

This error was not discovered until January 2003, when action was taken on a preliminary audit
finding we provided to DRR staff members. In response to this action, the DRR project manager
became aware that 2,598 uninsured depositor claims had been erroneously included with Other
Receivership Claims for 2002. At this point, DRR staff members resubmitted Other
Receivership Claims data to DOF for calendar year 2002 that only included general trade
creditor claims. As a result, an adjustment was made to the Service Costing System and
receivership expenses were reduced by $5.6 million.

Process Used to Calculate Other Receivership Claims Resolved

Per the MOU, RLS is the system of record for receivership claims in DRR; however, RLS was
not programmed to report the number of claims resolved on a monthly basis per receivership as
required for Service Costing. Therefore, the DRR team assigned to prepare the monthly Service
Costing report used ad hoc reports from RLS and manual tabulations of changes in pending
claims data on a monthly basis to determine the number of claims resolved each month.
However, this process did not capture any claims that were coded in RLS as being resolved in
the same month they were first entered into RLS. Also, this process calculated claims resolved
based on the date of the Claims Section’s determination rather than on the date the claim was
officially resolved per RLS. Accordingly, RLS was not used as intended per the MOU as the
system of record for determining the number of claims resolved per receivership each month.

We contacted the RLS Data Steward and were informed that guidance had not been issued to
describe the type of RLS report needed for service costing. However, the Data Steward said that
it would be relatively easy to enhance RLS to provide the type of report required once the needed
data elements were defined.

Because RLS could not provide a standard report to reflect monthly claims activity, we obtained
Creditor Listing Reports for each active receivership to determine the number of claims resolved
per RLS. This report documents the processing history of each claim as entered in RLS and the
date it was resolved. For each active receivership, we identified the number of general trade
creditor claims resolved per month during 2002 and compared the results with the number of
general trade creditor claims entered in the Service Costing System.10 Based on our comparison,
747 general trade creditor claims were reported as resolved in RLS, while under the process
followed in DRR, only 550 were reported to the Service Costing System. As a result, the
Service Costing Billing System under-billed corporate expenses to receiverships totaling
$427,884.


9
 The 2002 Budget Coding Guide is maintained by DOF. It contains information, including program code
descriptions, fund codes, account descriptions, and guidance used in formulating and managing the 2002 Budget.
10
   We compared the results after adjustments had been made for the uninsured depositor claims that had been
erroneously reported.


                                                       11
Submission of Workload Adjustments

DRR has not provided guidance for workload adjustments to be submitted from DRR systems to
the Service Costing System. As a result, incomplete data on assets sold were reported to the
Service Costing System. The Consolidated Asset Modernization Project (CAMP), which
includes NAIS, was established as the system of record during 2002 for providing data related to
assets managed and sold. However, NAIS did not include complete data for more recently
established receiverships and, as a result, $583,492 in expenses was under-billed to these
receiverships during 2002 for loans and other assets sold.

We compared loan sales workload data reported in the Service Costing System from
January 1, 2002 through November 30, 2002, to data in DRR’s Closed Loan Sales Report for the
same period and determined that 1,612 loans and 2,743 other assets sold were not reported to the
Service Costing System. DRR staff members advised us that these loans had not been entered
into NAIS because of alternative closing procedures that were used to facilitate marketing of
these assets. The loan-level detail that normally is fed into NAIS soon after closing of an
institution was not converted to NAIS in the normal time frame. Only summary loan
information was recorded at closing and, therefore, no active data were being fed into NAIS.
DRR determined that not entering the loan detail information to NAIS was affecting service
costing and is working to identify asset sales information that was not included in NAIS.
However, as these sales are identified, there is no standard procedure established for these data to
be provided from NAIS to the Service Costing System. As a result, the Service Costing System
under-billed corporate expenses to receiverships totaling $583,492.

Adjustments to Receivership Billings

Based on the results stated above, the Service Costing System under-billed administrative
expenses to receiverships by approximately $1.01 million. This amount represents the total cost
of the 197 general trade creditor claims, 1,612 loans, and 2,743 other assets that were not billed.
DRR and DOF will need to work together to determine the appropriate adjustment needed to the
receivership billing records. It is important to note if the FDIC did not recover the $1.01 million
from the respective receiverships as administrative expenses, most of the $1.01 million would be
recovered by the FDIC in the form of dividend payments from the receiverships, as excess cash
is generated by the disposition of receivership assets. However, the portion that would likely not
be recovered as dividend payments will be reported as funds put to better use.

Using the data we provided regarding the specific under-billed expenses, DOF calculated the
impact that such under-billings would have on the FDIC—that is, the funds put to better use
amount. Specifically, DOF determined the FDIC’s and the other claimants’ dividend recovery
percentages. The FDIC’s dividend recovery percentage averaged 96.3 percent for the 28
institutions affected by the under-billings. The percentages ranged from a high of a 100 percent
recovery to a low of 76 percent. Using these percentages, DOF determined that the FDIC would
likely have not recovered $37,242 of under-billed administrative expenses as receivership
dividend payments. It is this difference that we are reporting as funds put to better use.



                                                12
Recommendations

We recommend that the Directors, DOF and DRR:

(4) Ensure that DRR and DOF staff review data submitted related to NAIS and RLS during 2002
    to determine whether adjustments should be made to receivership billings totaling $427,884
    related to Other Receivership Claims and $583,492 related to loan and other asset sales
    (estimated funds put to better use of $37,242, which represents the portion that the FDIC
    would likely not recover in receivership dividend payments).

(5) Establish procedures for submitting workload data to the Service Costing System that clearly
    and specifically detail the data to be provided.

We recommend that the Director, DRR:

(6) Enhance RLS to provide a standard report of the monthly data required for the Service
    Costing System.

(7) Ensure that procedures for submitting workload adjustments after the standard reporting date
    are provided to all DRR staff members involved in the Service Costing process.


CORPORATION COMMENTS AND OIG EVALUATION

On March 28, 2003, the DRR and DOF Directors provided a joint written response to the draft
report. The response is presented in Appendix III to this report. In their written response, DRR
and DOF management concurred with each of the recommendations and the $37,242 being
reported as funds put to better use. These recommendations are considered resolved but will
remain undispositioned and open until we have determined that agreed-to corrective actions have
been completed and are effective. The responses to the recommendations are summarized below
along with our evaluation of the responses.

Recommendation 1: Include DRR systems and specific data elements used for the Service
Costing System under the Data Quality Program to be periodically verified and validated.

DRR concurs with this recommendation. DRR’s Data Quality Directive will be modified by
year-end 2003 to include the specific data elements that feed into the Service Costing System.
DRR will phase in a more thorough review of the Service Costing process and data beginning
June 30, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.




                                               13
Recommendation 2: Establish procedures that require DRR staff members involved in the
service costing process to verify that the data they submitted were processed accurately.

DRR concurs with this recommendation. DRR and DOF will work together to create standard
procedures to be used by all parties who submit Service Costing data. Reports will also be
developed that will be easily available to all parties who compile and submit these data. The
reports will allow the users to verify that the information they submit was processed correctly,
report any errors in processing, and, if necessary, determine how to make adjustments to their
data. These procedures will be implemented by June 30, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 3: Ensure that appropriate DRR staff members are able to access the
Service Costing System to verify data submitted.

Both DRR and DOF concur with this recommendation. As of March 18, 2003 there were 40
employees who had “Read Access To Data” to Service Billing. DOF and DRR will
cooperatively work with service line owners to determine those responsible for supplying,
reviewing, and validating the service costing data. Proper access levels to the Service Costing
System will be provided to those identified. This process will be completed by June 30, 2003.
To further enhance user knowledge, DOF and DRR will jointly conduct Service Billing training
sessions for Washington and Dallas DRR staff. The expected date for completion of the training
process is May 15, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 4: Ensure that DRR and DOF staff review data submitted related to
NAIS and RLS during 2002 to determine whether adjustments should be made to
receivership billings totaling $427,884 related to Other Receivership Claims and $583,492
related to loan and other asset sales (estimated funds put to better use of $37,242, which
represents the portion that the FDIC would likely not recover in receivership dividend
payments).

DOF and DRR concur with the recommendation and the $37,241.70 identified as funds put to
better use. DRR and DOF will work together to verify and record the adjustments necessary to
ensure the proper billing for services performed by the FDIC on behalf of the receiverships.
Thus far, DRR Receivership Claims has updated the total Claims Processed for 2002, reconciled
these claims per receivership, and concluded there were 197 claims not reported for 2002. These
additional claims were reported to DOF the week of March 3, 2003. DOF will make adjustments
related to the 2002 Service Billings during the Service Billing process for April and/or May
2003.



                                                14
DRR Asset Sales also recognizes that there are differences in the values reported by Service
Costing and the values reported by Asset Marketing, Dallas. DRR has begun a reconciliation of
these items and, upon completion, will recommend an adjustment for the appropriate financial
institution number. DRR has also amended its procedures to have Financial Processing forward
the sales files to the Data Standardization Vendor (Midland Loan Services), ensuring that the
correct number of loans and balances are identified as being sold. The receiverships’ assets that
were “alternatively marketed” were loaded into NAIS subsequent to the OIG review. The
expected date for the completion of recording adjustments is May 31, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed.

Recommendation 5: Establish procedures for submitting workload data to the Service
Costing System that clearly and specifically detail the data to be provided.

DRR and DOF concur with the recommendation. DOF and DRR will issue a joint directive
entitled “Budget and Business Planning Procedures for the Receivership Management Program
(Including Rate-Setting)” by June 30, 2003. The directive details the identification, review, and
resolution of service billing errors. The Service Line Owner is responsible for addressing all
billing issues. DOF is responsible for mechanical, computational, and/or system-related issues.

Desk-top guidelines will be prepared by DRR Receivership Claims that will provide procedures
for specifically identifying the data to be gathered and the process for gathering, validating, and
reporting the data to DOF. Procedures have already been determined and drafted by Asset
Management and Asset Sales to identify all necessary steps for submitting validated data. All
DRR procedures will be in place by June 30, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 6: Enhance RLS to provide a standard report of the monthly data
required for the Service Costing System.

DRR concurs with this recommendation. Receivership Claims has begun development of an
enhancement to RLS Reports so that this information can be compiled more efficiently.
Currently, however, enhancements to RLS are on hold due to the Claims Process Review
project.11 In the interim, DIRM will assist with the development of an ad hoc report designed to
capture these data. It is expected that the ad hoc reports will be completed by March 31, 2003.
DIRM will also run the ad hoc reports for Receivership Claims on a monthly basis until the RLS
Reports enhancement can be implemented. Based on the results of a brief cost/benefit analysis,
the enhancement to the RLS Reports is anticipated to be available with the Version 8.1 release
planned for an October 2003 implementation. If a more extensive cost/benefit analysis does not

11
  The Claims Process Review project was established to explore capacity enhancements to the claims processes and
resources to promote efficient handling of depositor insurance determinations and general trade creditor claims.


                                                       15
support the enhancement of the RLS Reports, DRR will continue to utilize the DIRM ad hoc
report.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 7: Ensure that procedures for submitting workload adjustments after the
standard reporting date are provided to all DRR staff members involved in the Service
Costing process.

DRR concurs with this recommendation. Standard procedures will be developed regarding the
submission and review of data. These procedures will incorporate procedures on how amended
data are to be reported and confirmed for changes. The procedures will be established by
June 30, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.




                                             16
                                                                                     APPENDIX I




                       OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective of this audit was to evaluate whether adequate controls exist to ensure the
accuracy, timeliness, and completeness of DRR data used by the Service Costing System.
Specifically, we determined whether adequate controls exist to: (1) validate and verify data in DRR
systems that update the Service Costing System, (2) ensure the timeliness and completeness of DRR
processing and reporting of data to the Service Costing System, and (3) ensure compliance with
applicable laws and regulations. We did not review the Service Costing System or any aspect of the
rates established for the Receivership Management program’s service lines. Our review was limited
to the controls related to data submissions from DRR systems to the Service Costing System that are
used by DOF to calculate receivership billings. Our audit scope included data provided from DRR
systems to the Service Costing System from January 1, 2002 through December 31, 2002. We
performed our work from June 2002 through January 2003 in accordance with generally accepted
government auditing standards.

Methodology

To accomplish our objectives, we reviewed Service Costing System-related guidance, including the
Service Costing Scoping Plan, Service Costing Benchmarking Guide, Budget and Business Planning
Procedures for the Receivership Management Program, Service Billing User Guide, and briefing
materials covering the Service Costing Initiative.

To obtain an understanding of the controls over data quality procedures, we reviewed procedures on
the Subsidiary Information Management Network (SIMAN), Warranties and Representations
Accounts Processing System (WRAPS), Pension Plan Tracking System (PENTRACK), National
Asset Information System (NAIS), and Receivership Liability System (RLS). We also reviewed the
Memorandums of Understanding (MOU) between DOF and DRR setting the procedures to be
followed for submission of workload driver data to the Service Costing System, DRR Directive
4360.14 on the Data Quality Program, and results of data quality reviews on SIMAN and RLS. We
conducted interviews of DRR managers and staff in Washington, D.C. and the Dallas Regional
Office responsible for providing data from each DRR system to the Service Costing System. We
also met with DOF staff involved in the Service Costing System related to receivership billings.

Based on the results of initial testing conducted of data provided to the Service Costing System, we
focused our testing on data provided from RLS and NAIS. We obtained RLS Creditor Listing
Reports for all active receiverships. We identified the number of general trade creditor claims
resolved per month during 2002 and compared the results with data entered in the Service Costing
System for the period January 2002 through December 2002. We obtained loan sales data reported
in DRR’s Closed Loan Sales Report from the Asset Marketing Department. We compared these
data to the loan sales data provided from NAIS to the Service Costing System for the period January
2002 through November 2002 and sampled data on managed assets for selected months during the
year. We also performed a review of Asset Claims data provided from WRAPS and Subsidiaries
Managed data from SIMAN during June and July 2002.



                                                17
                                                                                                 APPENDIX I




Government Performance and Results Act12

To determine whether DRR had any performance measures that we should consider in this audit, we
reviewed the 2001 and 2002 Strategic and Annual Performance Plans. In the 2001 Annual
Performance Plan, DRR had a goal to maintain a continuous review program for data quality of
selected systems. In 2002, DRR included reliability of system data and quality of management and
strategic reporting in its Management Control Plan. We obtained the results of reviews conducted by
DRR during 2002 on selected systems to document the extent to which DRR was managing and
measuring the results of its data quality program.

Reliance on Computer-Generated Data

We relied on computer-generated data that we determined to be sufficiently reliable for the purposes
of this audit related to WRAPS, RLS, and SIMAN. Our reliance on WRAPS was based on our
testing of 2 months of WRAPS data to source documentation that indicated that the data were
sufficiently reliable. Our reliance on RLS and SIMAN data was based on test results by DRR during
2002 that indicated data were sufficiently reliable. We did not rely on data from NAIS or
PENTRAK. We determined that data in NAIS for the purpose of our audit was not complete and we
did not perform testing or obtain any test results related to PENTRACK. We also relied on
computer-generated data from the Service Costing System. To the extent that we relied on data from
the Service Costing System, data were compared to other systems for verification.

Management Controls

To establish management controls over data input to the Service Costing System, DRR and DOF
entered into MOUs related to each DRR system providing data. The purpose of these
memorandums is to identify the specific data that will be needed by the Service Costing System and
the method by which the data will be transferred from RLS to the Service Costing System. To gain
an understanding and to test management controls, we reviewed each MOU and conducted testing of
the data provided from DRR systems to that described in the respective MOU. DRR also established
management controls related to data integrity over its priority systems. For each system providing
data to the Service Costing System, we obtained and reviewed the latest data integrity results.

Prior Audit Coverage

The Service Costing System was first implemented in January 2002. This was the first OIG audit
related to DRR’s data integrity controls over input to the Service Costing System.




12
    The Government Performance and Results Act of 1993 (P.L. No. 103-62, codified as title 5, 31, and 39, U.S.C.)
requires agencies to develop strategic plans, align programs and activities with concrete missions and goals, and
manage and measure results. An agency is to prepare annual performance plans that establish connections with
strategic goals and day-to-day activities and report on the extent to which the agency is meeting its annual
performance goals.


                                                       18
                                                                                      APPENDIX I




Pertinent Laws and Regulations

Federal Deposit Insurance Act, as amended

12 U.S.C. § 1821(a)(4)

(4) GENERAL PROVISIONS RELATING TO FUNDS.—
      (A) MAINTENANCE AND USE OF FUNDS.--The Bank Insurance Fund established
          under paragraph (5) and the Savings Association Insurance Fund established under
          paragraph (6) shall each be--
          (i) maintained and administered by the Corporation;
          (ii) maintained separately and not commingled; and
          (iii) used by the Corporation to carry out its insurance purposes in the manner
          provided in this subsection.

12 U.S.C. § 1821 (a)(7)(B)

(B) ACCOUNTING REQUIREMENTS.—
      (i) ACCOUNTING FOR USE OF FACILITIES AND RESOURCES.--The Corporation
      shall keep a full and complete accounting of all costs and expenses associated with the use
      of any facility or resource used in the course of any function specified in subparagraph
      (A)(i) and shall allocate, in the manner provided in subparagraph (C), any such costs and
      expenses incurred by the Corporation--
      (I) with respect to Bank Insurance Fund members to the Bank Insurance Fund; and
      (II) with respect to Savings Association Insurance Fund members to the Savings Association
      Insurance Fund.
      (ii) Accounting for holding and managing assets and liabilities.--The Corporation shall keep
      a full and complete accounting of all costs and expenses associated with the holding and
      management of any asset or liability specified in subparagraph (A)(ii).
      (iii) Accounting for disposition of assets and liabilities.--The Corporation shall keep a full
      and complete accounting of all expenses and receipts associated with the disposition of any
      asset or liability specified in subparagraph (A)(ii).
      (iv) ALLOCATION OF COST, EXPENSES AND RECEIPTS.--The Corporation shall
      allocate any cost, expense, and receipt described in clause (ii) or clause (iii) which is
      associated with any asset or liability belonging to--
      (I) any Bank Insurance Fund member to the Bank Insurance Fund; and
      (II) any Savings Association Insurance Fund member to the Savings Association Insurance
      Fund.

       (B) ALLOCATION OF ADMINISTRATIVE EXPENSES.--Any personnel,
           administrative, or other overhead expense of the Corporation shall be allocated--
           (i) fully to the Bank Insurance Fund, if the expense was incurred directly as a result of
           the Corporation's responsibilities solely with respect to Bank Insurance Fund members;
           (ii) fully to the Savings Association Insurance Fund, if the expense was incurred directly
           as a result of the Corporation's responsibilities solely with respect to Savings


                                                19
                                                                                        APPENDIX I




            Association Insurance Fund members;
            (iii) between the Bank Insurance Fund and the Savings Association Insurance Fund, in
            amounts reflecting the relative degree to which the expense was incurred as a result of
            the activities of Bank Insurance Fund and Savings Association Insurance Fund
            members; or
            (iv) between the Bank Insurance Fund and the Savings Association Insurance Fund, in
            amounts reflecting the relative total assets as of the end of the preceding calendar year of
            Bank Insurance Fund members and Savings Association Insurance Fund members, to
            the extent that the Board of Directors is unable to make a determination under clause (i),
            (ii), or (iii).

FDIC Rules & Regulations

12 CFR § 360.4 Administrative Expenses

   The priority for “administrative expenses of the receiver,” as that term is used in section
11(d)(11) of the Act (12 U.S.C. 1821(d)(11), shall include those necessary expenses incurred by the
receiver in liquidating or otherwise resolving the affairs of a failed insured depository institution.
Such expenses shall include pre-failure and post-failure obligations that the receiver determines are
necessary and appropriate to facilitate the smooth and orderly liquidation or other resolution of the
institution.




                                                  20
                                                                                    APPENDIX II




        DESCRIPTIONS OF DRR SYSTEMS THAT PROVIDE DATA
                TO THE SERVICE COSTING SYSTEM
National Asset Information System (NAIS)

NAIS is an asset inventory system maintained by Midland Loan Services in Little Rock,
Arkansas, which is an FDIC contractor providing data standardization services. It is a data
repository for information provided by other systems of record, including the Owned Real Estate
System (ORES), Asset Marketing System (AMS), and Credit Notation System (CNS). Loan
Servicing Data are also provided from both the FDIC’s National Processing System (NPS) and
Loan Service organizations located throughout the United States. Data extracts from NPS are
received weekly and used to update NAIS. The external servicers provide updated data on a
monthly basis.

Data provided for each receivership to the Service Costing System include:
• Total number of assets managed
• Number of loans sold
• Number of securities sold
• Number of owned real estate sold
• Number of other assets sold
• Number of commercial loans managed
• Number of family mortgages managed
• Number of other real estate loans managed
• Number of other loans managed
• Number of owned real estate managed
• Number of other assets managed

Receivership Liability System (RLS)

RLS is a claim tracking system developed by DRR and the Division of Information Resources
Management and implemented in July 1999. It is used to store and track individual uninsured
depositor and general trade creditor claims resulting from a failed financial institution.
Uninsured depositor claims are established at the time of the institution’s closing and entered
into RLS at that time. General trade creditor claims are entered over the life of the receivership
as they are received from creditors of the failed institutions. A common general trade creditor
claim might be a law firm that had billed the institution for work performed but was not paid as
of the date of closing. As these claims are received, they are entered into RLS and resolved
(either approved of disapproved) within 180 days of the receipt of claim.

Data obtained from RLS for the Service Costing System:
• Number of claims resolved by receivership
• Number of deposit groups by receivership




                                                21
                                                                                   APPENDIX II




Warranties and Representations Accounts Processing System (WRAPS)

WRAPS is the national system used by DRR to monitor contractual obligations between sellers
and purchasers of FDIC assets. WRAPS allows the FDIC to assess its potential financial liability
and document the representations and warranties that have been provided with the sale of loan
and loan-related assets. It tracks the sale of loans, administers reserves for corporate guaranteed
sales, supports decisions of asset claims, and tracks management fees and claims. FDIC DRR
staff members use WRAPS as their primary system to support the Asset Claims function. The
system is used to capture all data associated with the FDIC’s obligations to purchasers of FDIC
loan and loan-related assets. Data that feeds into the Service Costing System on a monthly basis
from WRAPS include the number of asset claims resolved by receivership.

Subsidiary Information Management Network (SIMAN)

SIMAN is a nationwide system used by DRR to track subsidiaries and joint venture partnerships
from the time a banking institution is taken over by the FDIC until the subsidiary is resolved.
SIMAN provides the data and functionality necessary to support the management, disposition,
and resolution of subsidiaries. Management activity includes oversight of the day-to-day
operations of the subsidiary. Operations include monitoring litigation, monitoring sales of
related assets, company management of active entities, and oversight of financial activity.
Disposition activities include bringing to closure any outstanding issues prior to resolution.
Data that feed into the Service Costing System on a monthly basis from SIMAN include the
number of subsidiaries managed by receivership.

Pension Plan Tracking System (PENTRACK)

PENTRACK is a nationwide system used by the FDIC to track pension plan information on
employees of failed financial institutions. The FDIC becomes the administrator for pension
plans acquired when an institution is closed. Numerous pension plans are managed by many
different investment firms for which the FDIC is responsible for maintaining information to
carry out responsibilities to employees of the failed institution. PENTRACK is the database
used to maintain information related to the number of pension plans and other information
necessary to monitor these programs acquired from failed financial institutions. Data provided to
the Service Costing System on a monthly basis from PENTRACK include the number of pension
plan participants by receivership.




                                                22
                       APPENDIX III

CORPORATION COMMENTS




         23
     APPENDIX III




24
     APPENDIX III




25
     APPENDIX III




26
                                                                                                                                                    APPENDIX IV

                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the
date of report issuance. The information in this table is based on management’s written response to our report.

                                                                                                                                                       Open
 Rec.                                                                     Expected             Monetary      Resolveda :     Dispositionedb :           or
Number           Corrective Action: Taken or Planned/Status            Completion Date         Benefits      Yes or No          Yes or No             Closedc
              DRR concurs with this recommendation. DRR’s
              Data Quality Directive will be modified by year-end
              2003 to include the specific data elements that feed
              into the Service Costing System. DRR will phase in
              a more thorough review of the Service Costing
      1       process and data beginning June 30, 2003.                    June 30, 2003          N/A            Yes                No                 Open

              DRR concurs with this recommendation. DRR and
              DOF will work together to create standard
              procedures to be used by all parties who submit
              Service Costing data. Reports will also be developed
              that will be easily available to all parties who
              compile and submit these data. The reports will
              allow the users to verify that the information they
              submit was processed correctly, report any errors in
              processing, and, if necessary, determine how to make
      2       adjustments to their data. These procedures will be          June 30, 2003          N/A            Yes                No                Open
              implemented by June 30, 2003.



a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                   management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                                    27
                                                                                                 APPENDIX IV

    Both DRR and DOF concur with this
    recommendation. As of March 18, 2003 there were
    40 employees who had “Read Access To Data” to
    Service Billing. DOF and DRR will cooperatively
    work with service line owners to determine those
    responsible for supplying, reviewing, and validating
    the service costing data. Proper access levels to the
    Service Costing System will be provided to those
    identified. This process will be completed by
    June 30, 2003. To further enhance user knowledge,
3   DOF and DRR will jointly conduct Service Billing        May 15, 2003     N/A      Yes   No   Open
    training sessions for Washington and Dallas DRR
    staff. The expected date for completion of the
    training process is May 15, 2003.

    DOF and DRR concur with the recommendation and
    the $37,241.70 identified as funds put to better use.
    DRR and DOF will work together to verify and
    record the adjustments necessary to ensure the proper
    billing for services performed by the FDIC on behalf
    of the receiverships. The expected date for the
4   completion of recording adjustments is May 31,          May 31, 2003    $37,242   Yes   No   Open
    2003.

    DRR and DOF concur with the recommendation.
    DOF and DRR will issue a joint directive entitled
    “Budget and Business Planning Procedures for the
    Receivership Management Program (Including Rate-
    Setting)” by June 30, 2003. Desk-top guidelines will
    be prepared by DRR Receivership Claims that will
    provide procedures for specifically identifying the
    data to be gathered and the process for gathering,
    validating, and reporting the data to DOF.
    Procedures have already been determined and
    drafted by Asset Management and Asset Sales to
    identify all necessary steps for submitting validated
5   data. All DRR procedures will be in place by            June 30, 2003    N/A      Yes   No   Open
    June 30, 2003.




                                                                     28
                                                                                                  APPENDIX IV
    DRR concurs with this recommendation.
    Receivership Claims has begun development of an
    enhancement to RLS Reports so that this information
    could be compiled more efficiently. It is expected
    that the ad hoc reports will be completed by
    March 31, 2003. DIRM will also run the ad hoc
    reports for Claims on a monthly basis until the RLS
    Reports enhancement can be implemented. Based on
    the results of a brief cost/benefit analysis, the
    enhancement to the RLS Reports is anticipated to be
    available with the Version 8.1 release planned for an
    October 2003 implementation. If a more extensive
6   cost/benefit analysis does not support the
    enhancement of the RLS Reports, DRR will continue       October 31, 2003   N/A   Yes    No     Open
    to utilize the DIRM ad hoc report.
    DRR concurs with this recommendation. Standard
    procedures will be developed regarding the
    submission and review of data. These procedures
    will incorporate procedures on how amended data
    are to be reported and confirmed for changes. The
7   procedures will be established by June 30, 2003.           June 30, 2003   N/A    Yes    No    Open




                                                                        29
